HHS/OIG-Audit--"Summary Report on Institutions for Mental Diseases, (A-05-92-00024)"
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Summary Report on Institutions for Mental Diseases," (A-05-92-00024)
June 1, 1992
Complete Text of Report is available in PDF format
(667 kb). Copies can also be obtained by contacting the Office of Public Affairs
at 202-619-1343.
EXECUTIVE SUMMARY:
This final audit report summarizes the results of recent audits conducted to
determine compliance with Federal law and regulations applicable to institutions
for mental diseases (IMD). The Social Security Act generally precludes Federal
financial participation in the cost of care and treatment provided to individuals
in IMDs who are between 22 and 64 years of age. Our reviews in several States
identified unallowable Medicaid payments totaling over $33 million (Federal
share). Partly as a result of these audits, regional offices of the Health Care
Financing Administration identified and recovered an additional $40 million
from the States. We estimate that the Federal Government will realize annual
cost savings under the Medicaid program of $35 million.